CERTIFICATE OF SERVICE
No. 18A1036
It is hereby certified that onAp 7 . 2019,
that three copies each of the accompanying Petition
For Writ Of Certiorari were served on the following
by USPS mail:

Brian Warwick
Janet Varnell
Varnell & Warwick P.A.
P.O.Box 1870
Lady Lake, FL 32158
bwarwick@varnellandwarwick.com
Attorneys for Mako Products, Inc., Varnell &
Warwick P.A., Brian Warwick and Janet
Varnell

I declare under penalty of perjury that the
foregoing is true and correct.
Executed on Aus ?

. 2019

David Grober
578 Washington Blvd. # 866
Marina del Rey, CA. 90292

23

